V

Case No.
IN THE

Supreme Court of the United States
BRETT EMMETT LLOYD,
Petitioner,
vs.
JOHN GERHARD; JEFFREY WARNER;
ANNALISA BALL; CITY OF BEAVERTON,
Respondents,

PROOF OF SERVICE

I, Brett E. Lloyd, do swear and declare that on this
date, November 12, 2020, as required by Supreme Court
Rule 29, I have served and enclosed a PETITION FOR
WRIT OF CERTIORARI and MOTION TO FILE
PETITION IN NONCOMPLIANCE on each party to the
above proceeding or that party's counsel, and on every
other person required to be served, by depositing an
envelope containing the above documents in the United
States mail properly addressed to each of them and with
first-class postage prepaid.

\
>

Case No.
Names and addresses of those served are as follows:
JANET M. SCHROER
1000 SW Broadway - 20th floor
Portland, Oregon 97205
Attorney for Jeffrey Warner & City ofBeaverton

Kristen L. Tranetzki
121 SW Morrison Street - Suite 400
Portland, Oregon 97204
Attorney for Annalisa Ball

I declare under penalty of peijury that the foregoing is
true and correct.

EXECUTED on November 18, 2020

Brett Emmett Lloyd

H

